No.

IN THE
SUPREMRE COURT OF THE UNITED STATES

JOSE ZAVALA-MARTI,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.

PROOF OF SERVICE
I, JOSE ZAVALA MARTI, do swear or declare that on this 7^
, day
of January, 2021 as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows: Solicitor General Counsel
of Record United States Department of Justice950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001; and United States Attorney Office Torre Chardon,
Suite 1201, 350 Carlos Chardon Street, San Juan, PR, 00918.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on vTs-'??

t/ 7,

, 2021

X^Sig^ature)

ii

